HHS/OIG, Audit - ''Costs Claimed Under Title IV-E Foster Care Program for Children in Castille
Contracted Detention Facilities from October 1, 1997, to September 30, 2002, Commonwealth of Pennsylvania
Department of Public Welfare,"(A-03-04-00586)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Costs Claimed Under Title IV-E Foster Care Program for Children in Castille
Contracted Detention Facilities from October 1, 1997, to September 30, 2002, Commonwealth of Pennsylvania
Department of Public Welfare," (A-03-04-00586)
October 3, 2005
Complete
Text of Report is available in PDF format (562 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to analyze 18 Expenditure Adjustments from the Title IV-E Castille
maintenance placement claims to determine if they were correctly calculated and supported by claim
documentation.  Of the $18.3 million Federal share claimed by the Department of Public Welfare
(DPW) from October 1997 through September 2002 $609,681 was not allowable.  The Commonwealth of
Pennsylvania (Pennsylvania) claimed 9,002 days of care for children who did not meet Federal requirements
for eligibility.  Claims for these ineligible children amounted to $517,191 FFP.  Pennsylvania
did not provide documentation to support expenditures of $92,490 FFP under the Castille facility accounting
codes.  We recommended Pennsylvania refund unallowable foster care maintenance placement costs
in the amount of $609,681 claimed under the Castille program.  The State concurred with the first
finding but not the second, claiming some records were located after the audit and others destroyed.  We
contend that the claim was submitted within the 3-year record retention period.